2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

Legal Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-511

FACEBOOK, INC.,
Petitioner,

v.
NOAH DUGUID, ET AL.
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3rd day of January, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the RESPONDENT NOAH DUGUID’S BRIEF IN OPPOSITION in
the above entitled case. All parties required to be served have been served by third-party commercial carrier for delivery
within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
SCOTT L. NELSON SERGEI LEMBERG
ALLISON M. ZIEVE Counsel of Record
PUBLIC CITIZEN STEPHEN TAYLOR
LITIGATION GROUP LEMBERG LAW LLC
1600 20th Street NW 43 Danbury Road
Washington, DC 20009 Wilton, CT 06897
(202) 588-1000 (203) 663-2250

slemberg@lemberglaw.com

Attorneys for Respondent

Subscribed and sworn to before me this 3rd day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

een, EC bllite Qudeawh, Chl

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 39223
SERVICE LIST

Paul D. Clement

Kirkland & Ellis LLP

1301 Pennsylvania Avenue, NW

Washington, DC 20004
paul.clement@kirkland.com

202-389-5000

Counsel of Record for Petitioner Facebook, Inc.

Noel J. Francisco

Solicitor General

United States Department of Justice

Room 5616

950 Pennsylvania Avenue, NW

Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

202-514-2217

Counsel of Record for Respondent United States
